U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: James Davis v. United States of America,
S.Ct. No. 21-5081
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 9, 2021,
and placed on the docket on July 13, 2021. The government’s response is due on August 12,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 13, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

21-5081
DAVIS, JAMES
USA

PETER GOLDBERGER
50 RITTENHOUSE PLACE
ARDMORE, PA 19003
610-649-8200
PETER.GOLDBERGER@VERIZON.NET

